Case No. 20-613

IN THE
SUPREME COURT OF THE UNITED STATES

LYLE MARK COULTAS-PETITIONER Pro-Se
vs.

CARROLL J. TICHENOR et. al. - RESPONDENTS

PETITION FOR REHEARING

ON A WRIT FOR A CERTIORARI TO
THE UNITED STATES NINTH CIRCUIT OF APPEALS

LYLE MARK COULTAS

Pro-Se

P.O. BOX 434
GASTON, OREGON 97119
503-431-1839

RECEIVED
JAN 1 h 2071
©FFICE OF THE CLEHX
SUPREME COURT, U.S.

Petitioner makes this Petitioner's Petition For Rehearing on a Writ of Certiorari in
support of Petitioner's denied Writ of Certiorari.
JURISDICTION
Petitioner asks this Court to reconsider this Courts denial of Petitioners case. Petitioner
Filed a PETITION FOR WRIT OF CERTIORARI with this Court and it was dismissed on December
7th of this year 2020. Petitioner has filed a Petition to Reconsider within 25 days as required by the
Rules of the United States Supreme Court. 21 days after the Supreme Court Denied Plaintiffs Petition
for a Writ of Certiorari Plaintiff sent by United States Mail, A Petition for Rehearing, sent next day
delivery (Exhibit 1). The envelope was signed for by L. Johnson at 7:08 am on December 31,2020,
(Exhibits 2 & 3). Petitioner was notified by Scott S. Harris that Petitioner's Petition for rehearing was
returned for failure to comply with Rule 44 of the Rules of this Court (Exhibit 4). Scott S. Harris also
notified Petitioner that he had 15 days from the date of that letter, January 5,2021, to make corrections
and resubmit Petitioner's Petition for Rehearing. Petitioner resubmitted his petitioner for Rehearing on
January 11,2021, Next day delivery.
INTERVENING CIRCUMSTANCES OF SUBSTANTIAL OR CONTROLLING EFFECT
The United States Supreme Court has set rules and the law as it pertains to fraud on the court
cases. Petitioners cases is the textbook example of fraud on the court. This case started with fraud and
misconduct by the Yamhill County Oregon prosecutor and an Oregon State Police Crime Lab
Detective. All described in detail in Petitioners PETITION FOR WRIT OF CERTIORARI and
supported with Exhibits clearly proving Petitioners facts. Also covered in Petitioners PETITION
FOR WRIT OF CERTIORARI and supported with Exhibits clearly proving Petitioners facts is
evidence that the Oregon United States District Court Judge, Marco Hernandez, did intentionally
misrepresent the facts and the law in his order to dismiss Petitioners case.

2

Every fact presented by Petitioner alleging fraud / misconduct by the District Court Judge and
the Defendants is, in fact, fraud on the court, and is clearly exampled in other cases by the United
States Supreme Court and cited in Petitioners PETITION FOR WRIT OF CERTIORARI.
#

#

#

, or order procured by fraud, can be attacked at any time, in any court,

either directly or collaterally, provided that party is properly before court, People ex. re. Brzica v.
Village of Lake Barrington, 644 N.E.2d 66 (Ill.App.2 Dist. 1994).
No court has the lawful authority to validate a void order. U. S. v. Throckmorton, 98 U.S.
61,25 L.Ed 93 (1878); Hazel -Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 64 S.Ct .997
(1943); Root refining Co. v. Universal Oil Products Co., 169 F.2d 514 (1948); In re Garcia, 109 B.R.
335 (N.D. Illinois, 1989); Schwarz v. Schwarz, 27111.2d 140,188 N.E.2d 673 (1963), Dunham v.
Dunham, 162 Ill. 614 (1896); Skelly Oil v. Universal Oil Products Co. 338 Ill.App. 79, 87 (1st Dist.
1949).
The Supreme Court has characterized a fraud on the court as "a wrong against the institutions
set up to protect and safeguard the public, institutions in which fraud cannot be complacently tolerated
consistently with the good order of society." Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S.
238 (1944). The Ninth Circuit interprets this somewhat more broadly than other circuits, such that
"fraud upon the court includes both attempts to subvert the integrity of the court and fraud by an officer
of the court." In re Intermagnetics America, Inc., 926 F.2d 912, 916 (9th Cir. 1991). The court should
base its analysis "not so much in terms of whether the alleged fraud prejudiced the opposing party but
more in terms of whether the alleged fraud harms the integrity of the judicial processf.]" Id at 917
(citing Hazel-Atlas Glass, 322 U.S. at 246). Significantly, "[tjhere is no statute of limitations for fraud
on the court." Valerio v. Boise Cascade Corp., 80 F.R.D. 626, 640 (N.D. Cal. 1978) (citing C. Wright &
A. Miller, Federal Practice and Procedure § 2870 at 250 (1973)).

3

The statute criminalizes a government official who "knowingly and willfully": (1) falsifies,
conceals, or covers up by any trick, scheme, or device a material fact; (2) makes any materially false,
fictitious, or fraudulent statement or representation; or (3) makes or uses any false writing or document
knowing the same to contain any materially false, fictitious, or fraudulent statement or entry.
Petitioner's conviction was based on the most extreme fraud on the court that Petitioner can
find. The Defendants concealed a forensic report that proved Petitioner's computer never contained
pornography, they the Defendants invented a false forensic report that clearly showed several hundred
pornographic pictures that the defendants told the Jury were produced from Petitioner's computer. Then
the Defendants put several children on the witness stand and forced them to testify that they viewed
those pornographic pictures on my computer. At Post Conviction the computer evidence was
re-examined and it was proven that there was no evidence of pornography on Petitioner's computer and
that the pornography used in court by the defendants was from a different computer entirely. The
Defendant's put a group of children on the witness stand and forced them to view and falsely identify
pornography on the witness stand. The Defendant's stated and testified that Petitioner did this as part of
a grooming process. The Defendant's suborned perjury, knowningly used peijury and sent Petitioner to
prison as a child molester for the crimes that the Defendant's committed in court. Petitioner has
attempted to present this case in Court and the Courts refuse to hear it. The Oregon District Court has
misrepresented the facts of this case and the law as set by the United States Supreme Court.
This case is about Fraud on the Court by Police and Prosecutors. This case further involves
Judge's who misrepresent the law as set by the highest court in this country.
The United States Supreme Court needs to hear this case and make it known that this kind of
conduct is never permitted.

4

Petitioner asks this Court to REHEAR Petitioners case and;
Void Judge Marco Hernandez's Dismissal of Petitioner's case, and,
Void the two misdemeanorYamhill County Convictions for fraud on the court.
Petitioner makes this Petitioner's Petition For Rehearing on a Writ of Certiorari in
support of Petitioner's denied Writ of Certiorari.
Petitioner's Petition For Rehearing on a denied Writ of Certiorari should be granted.
Respectfully submittedf^

^DATE: January 11,2021

Cc; File

5

